No. 20-1114

 

 

IN THE
Supreme Court of the United States

AMERICAN HOSPITAL ASSOCIATION, ET AL.,

Petitioners,
Vv.

XAVIER BECERRA,
SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,

Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

BRIEF FOR AMICI CURIAE
NATIONAL ASSOCIATION OF HOME BUILDERS,
AMERICAN FARM BUREAU FEDERATION,
AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,
NATIONAL CATTLEMEN’S BEEF ASSOCIATION, AND
NATIONAL MINING ASSOCIATION
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,907 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

Colin Casey\Hogan
Wilson-Epes Printing Co., Inc.
